APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (March 18, 2021) ....................... 1a
District Court of Tulsa County, State of
Oklahoma, Findings of Fact and Conclusions
of Law (Signed November 6, 2020, Filed
November 12, 2020) .......................................... 11a
Agreed Stipulation
(September 25, 2020)........................................ 17a
Order of the Court of Criminal Appeals, State of
Oklahoma, Remanding for Evidentiary
Hearing (August 19, 2020) ............................... 20a

App.1a
OPINION OF THE COURT OF
CRIMINAL APPEALS, STATE OF OKLAHOMA
(MARCH 18, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
GRANT N. JACKSON, IV,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2016-453
An Appeal from the District Court of Tulsa County
the Honorable William D. Lafortune, District Judge
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
ROWLAND, VICE PRESIDING JUDGE:
Appellant Grant N. Jackson, IV was tried by jury
in the District Court of Tulsa County, Case No. CF2014-5892, and found guilty of Child Abuse by
Injury, in violation of 21 O.S.2011, § 843.5(A). The jury
assessed punishment at four years imprisonment
and the Honorable William D. LaFortune, District

App.2a
Judge, who presided at trial, sentenced Jackson accordingly. Jackson appeals raising the following issues:
(1) whether the evidence was sufficient to sustain
the verdict;
(2) whether the cumulative effect of prosecutorial
misconduct denied him a fair trial;
(3) whether he was denied his right to the effective assistance of trial counsel; and
(4) whether the cumulative effect of the errors
deprived him of a fair trial.
Jackson also submits his supplemental pro se
brief raising the following issues:
(1) whether the State of Oklahoma had jurisdiction over this alleged crime;
(2) whether the prosecutor violated the Napue/
Mooney Rule when she knowingly used perjured testimony; and
(3) whether the district court abused its discretion
when it failed to nullify the verdict of the
jury.1
1 We allowed the submission of Jackson’s supplemental pro se
brief, including his jurisdictional challenge, by separate order
dated April 6, 2017. Also in that Order, we allowed the State to
file a supplemental answer brief. On September 7, 2017, Jackson’s
appellate counsel sought to file a supplemental brief to present
new authority supporting Jackson’s pro se jurisdictional claim,
namely Murphy v. Royal. The State of Oklahoma objected to
Jackson’s application to file supplemental brief on September 13,
2017. On September 26, 2017, we held Jackson’s direct appeal in
abeyance pending the resolution of the Murphy case without ruling
on his application to file supplemental brief. Following the
Supreme Court’s decision in McGirt v. Oklahoma, 140 S. Ct. 2452

App.3a
We find relief is required on Jackson’s jurisdictional
challenge in Proposition 1 of his Supplemental Brief,
rendering his other claims moot. Jackson claims the
State of Oklahoma did not have jurisdiction to prosecute
him. He relies on 18 U.S.C. § 1153 and McGirt v.
Oklahoma, 591 U.S., 140 S. Ct. 2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of Tulsa County for an evidentiary hearing. The District Court was directed to
make findings of fact and conclusions of law on two
issues: (a) Jackson’s status as an Indian; and (b)
whether the crime occurred within the boundaries of
the Muscogee Creek Nation Reservation. Our Order
provided that, if the parties agreed as to what the evidence would show with regard to the questions
presented, the parties could enter into a written stipulation setting forth those facts, and no hearing would
be necessary.
On September 25, 2020, the parties appeared before
the Honorable Tracy L. Priddy for a status conference
and entered a written Agreed Stipulation in which
they agreed: (1) that Jackson has some Indian blood;
(2) that he was a registered citizen of the Muscogee
Creek Nation on the date of the charged offense; (3)
that the Muscogee Creek Nation is a federally recognized tribe; and (4) that the charged crime occurred
within the Muscogee Creek Nation Reservation. The
district court accepted the parties’ stipulation.
On November 12, 2020, the District Court filed its
Findings of Fact and Conclusions of Law. The District
(2020), the State withdrew its objection to Jackson’s application
to file supplemental brief and appellate counsel’s supplemental
brief was accepted.

App.4a
Court found the facts recited above in accordance with
the stipulation. The District Court concluded that
Jackson is an Indian under federal law and that the
charged crimes occurred within the boundaries of
the Muscogee Creek Nation Reservation. The District
Court’s findings are supported by the record. The
ruling in McGirt governs this case and requires us to
find the State of Oklahoma was without jurisdiction
to prosecute Jackson. Accordingly, we grant Jackson’s
Supplemental Brief Proposition 1.
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch. 18, App. (2021), the MANDATE is
ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
CREEK COUNTY THE HONORABLE
DOUGLAS W. GOLDEN, DISTRICT JUDGE
APPEARANCE AT TRIAL
Kyle Killam
2017 S. Elm Place, Suite 108
Broken Arrow, OK 74012
Jenny Proehl-Day
1408 South Denver
Tulsa, OK 74119
Attorneys for Defendant
Benjamin Fu
Andrea Brown

App.5a
Asst. District Attorneys
500 South Denver
Tulsa, OK 74103
Attorneys for State
APPEARANCES ON APPEAL
Nicollette Brandt
Appellate Defense Counsel
P.O. Box 926
Norman, OK 73070
Attorney for Appellant
Grant N. Jackson, IV,
Pro Se, Submitted Through Counsel
Nicollette Brandt
Mike Hunter
Attorney General of Oklahoma
Jay Schniederjan
Asst. Attorney General
313 N.E. 21 8t Street
Oklahoma City, OK 73105
Attorneys for Appellee
APPEARANCES ON REMAND
Nicollette Brandt
Danny Joseph
General Appeals Division, Oids
P.O. Box 926
Norman, OK 73070
Counsel for Defendant/Appellant
Mike Hunter
Attorney General of Oklahoma
Jennifer L. Crabb
Asst. Attorney General

App.6a
313 N.E. 21st Street
Oklahoma City, OK 73105
Attorney for State
Erik Grayless
First Assistant District Attorney of Tulsa County
500 S. Denver Ave., Suite 900
Tulsa, OK 74103
Counsel for State
OPINION BY: ROWLAND, V.P.J.
KUEHN, P.J.: Concur
LUMPKIN, J.: Concur in Result
LEWIS, J.: Concur
HUDSON, J.: Specially Concur

App.7a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, U.S. 140 S.
Ct. 2452 (2020), I do so reluctantly. Upon the first
reading of the majority opinion in McGirt I initially
formed the belief that it was a result in search of an
opinion to support it. Then upon reading the dissents
by Chief Justice Roberts and Justice Thomas I was
forced to conclude the Majority had totally failed to
follow the Court’s own precedents, but had cherry
picked statutes and treaties, without giving historical
context to them. The Majority then proceeded to do
what an average citizen who had been fully informed
of the law and facts as set out in the dissents would
view as an exercise of raw judicial power to reach a
decision which contravened not only the history leading
to the disestablishment of the Indian reservations in
Oklahoma, but also willfully disregarded and failed to
apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’ scholarly
and judicially penned dissent, actually following the
Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow the
rule of law and apply over a century of precedent and

App.8a
history, and to accept the fact that no Indian reservations
remain in the State of Oklahoma.2 The result seems
to be some form of “social justice” created out of whole
cloth rather than a continuation of the solid precedents
the Court has established over the last 100 years or
more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
2 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA) in
1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white section with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February 27,
1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support of
the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration
of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.9a
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application
of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do so
blindly and without noting the flaws of the opinion as
set out in the dissents. Chief Justice Roberts and Justice
Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with the
Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations in
the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.10a
HUDSON, J., SPECIALLY CONCURS
Today’s decision dismisses convictions for endangering others while eluding/attempting to elude a police
officer, possession of controlled dangerous substance
and various misdemeanor crimes from the District
Court of Okmulgee County based on the Supreme
Court’s decision in McGirt v. Oklahoma, 140 S. Ct. 2452
(2020). This decision is unquestionably correct as a
matter of stare decisis based on the Indian status of
Petitioner and the occurrence of the crimes on the
Creek Reservation. Under McGirt, the State has no
jurisdiction to prosecute Petitioner for the crimes in
this case. Instead, Petitioner must be prosecuted in
federal court. I therefore as a matter of stare decisis
fully concur in today’s decision. Further, I maintain
my previously expressed views on the significance of
McGirt, its far-reaching impact on the criminal justice
system in Oklahoma and the need for a practical
solution by Congress. See Bosse v. State, 2021 OK CR
3, ___ P.3d ___ (Hudson, J., Concur in Results);
Hogner v. State, 2021 OK CR 4, (Hudson, J., Specially
Concurs); and Krafft v. State, No. F-2018-340 (Okl.
Cr., Feb. 25, 2021) (Hudson, J., Specially Concurs)
(unpublished).

App.11a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDING OF FACTS
AND CONCLUSIONS OF LAW
(SIGNED NOVEMBER 6, 2020,
FILED NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR TULSA
COUNTY STATE OF OKLAHOMA
________________________
GRANT N. JACKSON, IV,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Tulsa County District Court Case No. CF-2014-5892
Court of Criminal Appeals Case No. F-2016-453
Before: Tracy L. PRIDDY, District Judge
This matter came on for a status conference on
September 25, 2020 pursuant to the remand order of
the Oklahoma Court of Criminal Appeals (“OCCA”)
issued August 19, 2020. Nicollette Brandt appeared
on behalf of Appellant, Grant N. Jackson, whose
appearance was waived. Assistant Attorney General
Jennifer Crabb appeared for Appellee. Tulsa County
First Assistant District Attorney Erik M. Grayless
also appeared. An evidentiary hearing was not held

App.12a
pursuant to the parties’ announcement that they had
agreed and stipulated to facts supporting the issues to
be determined by this Court.
The Appellant, in Proposition 1 of his Supplemental
Pro Se Brief filed April 6, 2017 and Proposition 1 of
his Supplemental Brief tendered for filing on September
7, 2017 asserted a claim that the District Court lacked
jurisdiction to try him as he is a citizen of the
Muscogee (Creek) Nation and that his crime occurred
within the boundaries of the Creek Reservation.
Appellant’s claim raises two questions: (a) his Indian
status, and (b) whether the crime occurred on the
Creek Reservation. These issues require fact-finding
to be addressed by the District Court per the OCCA
Order Remanding.
I.

Appellant’s Status as an Indian

To determine the Indian status of the Appellant,
the OCCA directed the District Court to make findings
of fact as to whether (1) Jackson has some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government.1 The Court finds as follows:
Findings of Fact
1. Grant N. Jackson is the named Defendant/
Appellant in the above-entitled matter.
2. The parties hereto stipulated and agreed that
Mr. Jackson has 17/128 Indian blood and has been a

1 United States v. Diaz, 679 F. 3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F. 3d 1277, 1280-81 (10th Cir.
2001). Generally Goforth v. State, 1982 OK CR 48, 116, 644 P.2d
114, 116.

App.13a
member of the Muscogee (Creek) Nation since July 23,
1998.2
3. The Muscogee (Creek) Nation is a federally
recognized tribe.3
4. Verification of Mr. Jackson’s tribal membership
and blood quantum are attached to this stipulation as
Exhibit A and the parties agree they should be admitted into the record of this case.4
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The Court
adopted the Agreed Stipulation of the parties, including
the attached documentation filed on September 25,
2020 and made findings of fact thereon. Grant N.
Jackson, IV has 17/128 Indian blood. The Agreed
Stipulation does not specifically identify Appellant’s
Indian bloodline, and the two prong test utilized by
state and federal courts for the purpose of determining
Indian status does not seem to contemplate a specific
bloodline be named, but the attached Exhibit A of the
Agreed Stipulation, Mr. Jackson’s Muscogee (Creek)
Nation Citizenship ID, indicates a blood quantum of
17/128.5 Although the term “Indian” is not statutorily

2 Exhibit 1, Agreed Stipulation 1a.
3 Exhibit 1, Agreed Stipulation 1b.
4 Exhibit 1, Agreed Stipulation 1c.
5 See United States v. Bruce, 394 F.3d 1215 (9th Cir. 2005)

App.14a
defined and various terms such as “sufficient”6, “substantial”7, “significant percentage of”8 or “some”9
have been used by courts in an attempt to define the
quantity of Indian blood required to satisfy this inquiry,
the OCCA mandate ordered this Court to determine
“whether the victim had some Indian blood.”10 Thus,
according to the term used by the OCCA in its Order,
this Court concludes Grant N. Jackson, IV has some
Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted
the Agreed Stipulation including the attached documentation and made findings of fact thereon. Grant N.
Jackson, IV was enrolled as a citizen of the Muscogee
(Creek) Nation on July 23, 1998 and was recognized
as a citizen of the Muscogee (Creek) Nation at the time
of the offense. The Muscogee (Creek) Nation is federally recognized tribe. Therefore, Grant N. Jackson, IV
is recognized as an Indian by a tribe or the federal
government.
Having answered both inquiries in the affirmative,
this Court concludes Grant N. Jackson, IV in an
Indian.

6 United States v. LaBuff, 658 F. 3d 873, 874-75 (9th Cir. 2011)
7 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
8 Goforth v. State, 1982 OK CR 48, ¶6, 644 P.2d 114, 116.
9 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).
10 Order Remanding for Evidentiary Hearing August 19, 2020.

App.15a
II. Whether the Crime Occurred on the Creek
Reservation
The OCCA further ordered the District Court to
determine whether the crime occurred on the Creek
Reservation, referred to as Indian Country.11 The
Court finds as follows:
Findings of Fact
1. The parties hereto stipulated that the crime
occurred at 9712 S. 93rd Ave. East, Tulsa, OK 74133.12
2. The parties further stipulated that this address
is within the boundaries of the Muscogee (Creek)
Nation.13
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the parties’ Agreed Stipulation as
well as the attached documentation and made findings
of fact thereon. The crime occurred at a location identified by a specific address that is within the boundaries
of the Creek Reservation. These boundaries were established through a series of treaties between the Muscogee
(Creek) Nation and the United States Government,
and are explicitly recognized as a reservation defined
by 18 U.S.C. § 1151(a). Based upon the Supreme Court’s
ruling in McGirt v. Oklahoma, 140 S. Ct. 2452, 207
L.Ed.2d 985 (2020), this Court concludes that the
11 McGirt v. Oklahoma, 140 S. Ct.2452 (2020); 18 U.S.C. §§ 1152,
1153.
12 Exhibit 1, Agreed Stipulation 2a.
13 Exhibit 1, Agreed Stipulation 2a.

App.16a
crime occurred on the Creek Reservation which is
Indian Country.
WHEREFORE, this Court finds that Grant N.
Jackson, IV is an Indian and that the crime for which
he was convicted occurred in Indian Country for purposes of the General Crimes Act, 18 U.S.C. § 1152 and
the Major Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 6th day of November,
2020.
/s/Tracy L. Priddy
District Judge

App.17a
AGREED STIPULATION
(SEPTEMBER 25, 2020)
IN THE DISTRICT COURT OF TULSA COUNTY
STATE OF OKLAHOMA
________________________
GRANT N. JACKSON, IV,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case Nos. F-2016-453
CF-2014-5892
The Oklahoma Court of Criminal Appeals remanded this matter for an evidentiary hearing pursuant to
the recent decision in McGirt v. Oklahoma, No. 189526 (U.S. July 9, 2020) to determine Mr. Jackson’s
(a) Indian status and (b) whether the crime occurred
on the Muscogee (Creek) Reservation. The parties
have reached the following stipulations:
1. As to Mr. Jackson’s Indian status, the parties
hereby stipulate and agree as follows:
a.

Mr. Jackson has 17/128 Indian blood and has
been a member of the Muscogee (Creek)
Nation since July 23, 1998.

App.18a
b.

The Muscogee (Creek) Nation is a federally
recognized tribe.

c.

Verification of Mr. Jackson’s tribal membership and blood quantum are attached to
this stipulation as Exhibit A and the parties
agree they should be admitted into the
record of this case.

2. As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

The crime occurred at 9712 S. 93rd Ave. East,
Tulsa, OK 74133, which lies within the
Muscogee (Creek) Reservation boundaries.

The parties therefore request that this Court
accept the stipulations.
Respectfully submitted,
/s/ Nicollette Brandt
Nicollette Brandt, No, 30996
Danny Joseph, No. 32812
General Appeals Division
Oklahoma Indigent Defense System
PO Box 926
Norman, Oklahoma 73070
(405) 801-2727

App.19a
/s/ Jennifer Crabb
Jennifer Crabb, No. 20546
Oklahoma Attorney General’s Office
Assistant Attorney General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921
/s/ Erik Grayless
Erik Grayless, No. 21197
Tulsa County District Attorney’s Office
First Assistant District Attorney
Tulsa County Courthouse
500 South Denver Avenue, Suite 900
Tulsa, Oklahoma 74103
(918) 596-4805

App.20a
ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
REMANDING FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
GRANT N. JACKSON, IV,
Appellant,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
Case No. F-2016-453
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
Appellant Grant N. Jackson, IV was tried by jury
and convicted of Child Abuse by Injury in the District
Court of Tulsa County, Case No. CF-2014-5892. In
accordance with the jury’s recommendation, the Honorable William D. LaFortune sentenced Jackson to four
years imprisonment. Jackson must serve 85% of his
sentence before he is eligible for parole consideration.
Jackson appeals his Judgment and Sentence.

App.21a
In Proposition 1 of his Supplemental Pro Se Brief
filed April 6, 2017 and Proposition 1 of his Supplemental
Brief tendered for filing on September 7, 2017, Jackson
claims the District Court lacked jurisdiction to try him.1
Jackson argues that he is a citizen of the Muscogee
(Creek) Nation and that his crime occurred within the
boundaries of the Creek Reservation. Jackson relies
on jurisdictional issues addressed in Murphy v. Royal,
875 F.3d 896 (10th Cir. 2017), which was affirmed
by the United States Supreme Court in Sharp v.
Murphy, 591 U.S., 140 S. Ct. 2412 (2020) for the reasons
stated in McGirt v. Oklahoma, 591 U.S., 140 S. Ct.
2452 (2020).2
Jackson’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
on the Creek Reservation. These issues require factfinding. We therefore REMAND this case to the District Court of Tulsa County, for an evidentiary hearing
1 On April 6, 2017, we granted Jackson’s request to file a supplemental brief with three pro se propositions of error, including his
jurisdictional challenge, and we allowed the State to file a supplemental answer brief. On September 7, 2017, Jackson’s appellate counsel sought to file a supplemental brief to present new
authority supporting Jackson’s pro se jurisdictional claim, namely
Murphy v. Royal. The State of Oklahoma objected to Jackson’s
application to file supplemental brief on September 13, 2017. On
September 26, 2017, we held Jackson’s direct appeal in abeyance
pending the resolution of the Murphy case without ruling on his
application to file supplemental brief.
2 Following the Supreme Court’s decision in McGirt, the State
withdrew its objection to Jackson’s application to file supplemental brief and asked for time to file a second supplemental
answer brief to respond to Jackson’s jurisdictional claim. In light
of the present order, there is no need for an additional response
from the State at this time.

App.22a
to be held within sixty (60) days from the date of this
Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request the
Attorney General and District Attorney work in coordination to effect uniformity and completeness in the
hearing process. Upon Jackson’s presentation of prima
facie evidence as to his legal status as an Indian and
as to the location of the crime in Indian Country, the
burden shifts to the State to prove it has subject
matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall then
make written findings of fact and conclusions of law,
to be submitted to this Court within twenty (20) days
after the filing of the transcripts in the District Court.
The District Court shall address only the following
issues:
First, Jackson’s status as an Indian. The District
Court must determine whether (1) Jackson has some
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.3
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any

3 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116.

App.23a
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings of
fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions of
law and supplemental briefing shall occur as set forth
above.
IT IS FURTHER ORDERED that the State’s
request for additional time to respond to Jackson’s
Supplemental Brief is DENIED and Jackson’s request
to file Supplemental Brief is GRANTED. The Clerk
of this Court is directed to file Appellant’s Supplemental Brief tendered for filing on September 7, 2017.
The Clerk of this Court shall transmit copies of the

App.24a
following, with this Order, to the District Court of
Tulsa County: Appellant’s Supplemental Pro Se Brief
filed April 6, 2017; Appellee’s Supplemental Brief filed
June 13, 2017; and Appellant’s Supplemental Brief
tendered for filing September 7, 2017.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

